May 8, 2002

SUZANNE F. MEDVIDOVICH
SENIOR VICE PRESIDENT, HUMAN RESOURCES

GEORGE L. LOPEZ
VICE PRESIDENT, SOUTHWEST AREA

SUBJECT:      Audit Report – Southwest Area’s Efforts in Obtaining Appropriate
              Chargeback Credits for Identified Wage Compensation Overpayments and
              Refundable Disbursements (Report Number LH-AR-02-003)

This report presents the results of our audit of the Southwest Area’s efforts in obtaining
appropriate chargeback credits for identified wage compensation overpayments and
refundable disbursements (Project Number 01HA064HC000). The audit was self­
initiated. Our primary objective was to determine whether the Southwest Area’s
automated and manual follow-up procedures were adequate for monitoring previously
identified wage compensation overpayments to employees who had returned to work.

The audit revealed that the Postal Service had policies that would ensure appropriate
chargeback credit adjustments for wage compensation overpayments and third party
liability refundable disbursements were received. However, five of the six Southwest
Area performance clusters we reviewed did not implement automated or manual
follow-up procedures to comply with the policies. The sixth performance cluster had
adequate procedures but had not followed them. As a result, the Postal Service did not
receive chargeback credit adjustments for approximately $286,000. We also projected
there are 223 cases representing wage compensation overpayments valued at
$702,000, that have not been followed up on.

We recommended that the Postal Service renew the emphasis on monitoring previously
identified overpayments and disbursements, issue area-wide follow-up procedures that
adhere to existing policies, develop a system to track previously identified wage
compensation overpayments, and using information provided by the Office of Inspector
General (OIG), review the cases we did not audit to determine if appropriate
chargeback credits were received for those cases. In addition, we recommended the
Postal Service consider implementing the Southwest Area recommendations Postal
Service wide. Management agreed with the conclusions, recommendations, and
monetary impacts and actions taken or proposed should address the issues identified in
this report. Management’s comments and our evaluation of these comments are
included in this report.

The OIG considers recommendations 1 through 5 significant and, therefore, requires
OIG concurrence before closure. Consequently, the OIG requests written confirmation
when corrective actions are completed. These recommendations should not be closed
in the follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions, please contact Chris Nicoloff, director, Labor Management,
at (214) 775-9114 or me (703) 248-2300.



Ronald K. Stith
Assistant Inspector General
 for Core Operations

Attachment

cc: 	DeWitt O. Harris
    Ronald E. Henderson
    Carol M. Garvey
    Arsenia P. Rhoden
    Joseph G. Forgione
    Karen E. McAliley
    Susan M. Duchek
Southwest Area’s Efforts in Obtaining Appropriate                  LH-AR-02-003
 Chargeback Credits for Identified Wage Compensation
 Overpayments and Refundable Disbursements



                                  TABLE OF CONTENTS
 Executive Summary
                                                 i

 Part I

 Introduction	                                                      1


     Background                                                     1

     Objective, Scope, and Methodology                              2

     Prior Audit Coverage                                           2


 Part II

 Audit Results	                                                     4


     Postal Service Paying More Than Necessary                      4

      in Wage Compensation Costs

         Policies Were Adequate                                     4

         Procedures Were Lacking                                    5

         Potential Postal Service-wide Issue                        6

         Conclusion                                                 6

     Recommendations                                                6

     Management’s Comments                                          7

     Evaluation of Management’s Comments                            8


 Appendix A. 	Objective, Scope, and Methodology                     9


 Appendix B. 	Statistical Sampling Plan Methodology                10


 Appendix C. 	Southwest Area Overpayments by Performance Cluster   13

              Not Credited to Postal Service


 Appendix D.	 Management’s Comments                                14





                                        Restricted Information
Southwest Area’s Efforts in Obtaining Appropriate                                 LH-AR-02-003
 Chargeback Credits for Identified Wage Compensation
 Overpayments and Refundable Disbursements

                                  EXECUTIVE SUMMARY
 Introduction 	                This was a self-initiated audit. Our primary audit objective
                               was to determine whether the Southwest Area’s automated
                               and manual follow-up procedures were adequate for
                               monitoring previously identified wage compensation
                               overpayments made to employees who had returned to
                               work.

 Results in Brief              The audit revealed that although the Postal Service had
                               issued sufficient policies, the Southwest Area staff did not
                               implement automated or manual follow-up procedures to
                               effectively monitor previously identified wage compensation
                               overpayments and third party liability refundable
                               disbursements. As a result, the Postal Service did not
                               receive proper chargeback credit adjustments from the
                               Department of Labor, Office of Workers’ Compensation
                               Programs, for approximately $286,000 of wage
                               compensation overpayments and refundable
                               disbursements. In addition, we project the Southwest Area
                               has about 223 cases representing wage compensation
                               overpayments valued at $702,000, that have not been
                               properly monitored or followed up. We could not project the
                               number of third party cases and associated dollar value for
                               refundable disbursements.

 Summary of                    We recommended that Postal Service managers renew
 Recommendations               emphasis on monitoring previously identified wage
                               compensation overpayments and third party liability
                               refundable disbursements. In addition, area-wide
                               monitoring and follow-up procedures, and a system to track
                               previously identified chargeback credits are needed. Also,
                               using information provided by the Office of Inspector
                               General (OIG), the Postal Service should identify and
                               review the cases not audited in this report to determine
                               whether it has received the appropriate chargeback credits
                               for those cases. Finally, based on the prior audit results in
                               the Pacific Area and the finding contained in this report, we
                               believe that the Postal Service should consider
                               implementing our recommendations Postal Service wide.




                                                   i
                                        Restricted Information
Southwest Area’s Efforts in Obtaining Appropriate                                LH-AR-02-003
 Chargeback Credits for Identified Wage Compensation
 Overpayments and Refundable Disbursements


 Summary of                    Management agreed with our recommendations to ensure
 Management’s                  appropriate chargeback credit adjustments for wage
 Comments                      compensation overpayments and refundable disbursements
                               are received. They also agreed to renew the emphasis on
                               monitoring identified wage compensation overpayments and
                               refundable disbursements; issue area wide procedures to
                               implement Postal Service policies on monitoring
                               overpayments and disbursements for immediate use by
                               April 19, 2002; develop several spreadsheets to track all
                               previously identified overpayments; and to use information
                               provided by the OIG to review the cases that were not a part
                               of the audit in order to determine if appropriate chargeback
                               credits were received. Also, management agreed with the
                               monetary impacts in the report. In addition, management
                               agreed to implement the recommendations Postal Service
                               wide, and will perform follow-up management reviews
                               during fiscal year 2003 to determine the level of compliance
                               with these recommendations. Management’s comments, in
                               their entirety, are included in Appendix D of this report.

 Overall Evaluation of         Management’s comments are responsive to our
 Management’s                  recommendations and the actions taken and planned
 Comments                      should correct the issues identified in this report.




                                                   ii
                                        Restricted Information
Southwest Area’s Efforts in Obtaining Appropriate                                                    LH-AR-02-003
 Chargeback Credits for Identified Wage Compensation
 Overpayments and Refundable Disbursements

                                            INTRODUCTION
    Background                     The Department of Labor, Office of Workers’ Compensation
                                   Programs, has sole responsibility for administering the
                                   Federal Employees’ Compensation Act. The act provides
                                   wage compensation benefits for wage loss and permanent
                                   impairment of specified members and functions of the body
                                   incurred by employees as a result of injury sustained while
                                   in the performance of their duties in service to the
                                   United States.

                                   The Office of Workers’ Compensation Programs
                                   Chargeback System is the mechanism by which the cost of
                                   compensation for work-related injuries and death are billed
                                   annually to employing agencies for benefits paid on their
                                   behalf, from July 1 through June 30 each year. The Postal
                                   Service was billed for over $731 million in workers’
                                   compensation expenditures in fiscal year (FY) 2001 of
                                   which approximately $430 million were for wage
                                   compensation charges. The Office of Workers’
                                   Compensation Programs also issues a quarterly
                                   chargeback report1 that provides a breakdown of cases and
                                   costs that appear on the yearly chargeback bill. The
                                   purpose of the report is for the Office of Workers’
                                   Compensation Programs and the employing agencies to
                                   identify and correct errors prior to the annual billing. When
                                   errors are identified, the Office of Workers’ Compensation
                                   Programs makes appropriate credit adjustments which are
                                   reflected on subsequent chargeback reports.

                                   Our review focused on the Southwest Area’s efforts to
                                   obtain credit adjustments for two types of errors--wage
                                   compensation overpayments2 (compensation
                                   overpayments) and third party liability3 refundable
                                   disbursements4 (refundable disbursements). The Postal

1
 The Automated Compensation Payment System and Bill Payment System history files are combined on a quarterly
and annual basis to create the Federal Employees’ Compensation Act chargeback report.
2
 These are overpayments of compensation provided for wage loss to civilian employees of the United States for
disabilities due to personal injury or disease sustained while performing official duties. This type of wage
compensation does not include continuation of pay benefits.
3
 Third party liability claims occur when an injury is caused by a person or object under circumstances that indicate
there is legal liability on a party other than the United States government to pay the damages. The government has a
subrogation interest (that is, the right to recover any payments it makes should the employee collect money from
another source).
4
 The refundable disbursement of a claim consists of the total money paid by the Office of Workers’ Compensation
Programs from the Employees’ Compensation Fund on behalf of the beneficiary, less charges for any medical file
review or if applicable, medical examinations.



                                                         1
                                              Restricted Information
Southwest Area’s Efforts in Obtaining Appropriate	                                  LH-AR-02-003
 Chargeback Credits for Identified Wage Compensation
 Overpayments and Refundable Disbursements

                               Service has established injury compensation control offices
                               (control offices) and designated control points to monitor
                               compensation overpayments and refundable disbursements
                               to ensure the appropriate chargeback credit adjustments
                               are received. Monitoring requires control office personnel to
                               verify the accuracy of the quarterly chargeback reports and
                               to notify the Office of Workers’ Compensation Programs
                               district office of any errors within 90 days of the receipt of
                               the report. Notification must be accompanied by
                               appropriate documentation.

 Objective, Scope, and         We limited our review to focusing on follow-up procedures
 Methodology                   related to previously identified compensation overpayments,
                               refundable disbursements, and a review of applicable
                               internal controls. To accomplish our objective, we reviewed
                               Postal Service policies and procedures associated with
                               compensation overpayments and refundable
                               disbursements. Further, we reviewed injury claim case files
                               and interviewed control office personnel from the Southwest
                               Area. (See Appendix A for complete objective, scope, and
                               methodology details.)

                               Our audit was conducted from May 2001 through May 2002,
                               in accordance with generally accepted government auditing
                               standards and included such tests of internal controls as
                               were considered necessary under the circumstances. We
                               discussed our finding and recommendations with
                               appropriate management officials and included their
                               comments, where appropriate.

 Prior Audit Coverage          Postal Service Office of Inspector General (OIG), Workers’
                               Compensation Case Management (Report Number HC-AR-
                               98-001), dated September 30, 1998, concluded that the
                               Pacific Area performance clusters could benefit from
                               alternative procedures to identify instances of compensation
                               overpayments and manage compensation costs more
                               effectively. Specifically, the performance clusters:

                                  •	 Did not effectively identify compensation 

                                     overpayments.

                                  •	 Did not have current procedures that provided 

                                     effective and efficient identification of workers’ 

                                     compensation overpayments.





                                                   2
                                        Restricted Information
Southwest Area’s Efforts in Obtaining Appropriate                                 LH-AR-02-003
 Chargeback Credits for Identified Wage Compensation
 Overpayments and Refundable Disbursements


                               Postal Service management concurred with the
                               recommendations and the OIG concluded management
                               actions taken or planned should correct the issues identified
                               in the report.

                               President’s Council on Integrity and Efficiency, Consolidated
                               Report on the Audit of Employing Agency Workers’
                               Compensation Programs (Report Number 02-96-223-04-
                               431), dated February 16, 1996, issued by the Audit
                               Committee, was designed to evaluate the effectiveness and
                               efficiency of employing agency workers’ compensation
                               programs. Of the 13 OIGs included in the audit, all reported
                               on verifying the chargeback reports. Twelve of the
                               thirteen employing agencies were not adequately verifying
                               their chargeback cost reports. As a result, many employing
                               agencies were paying more in Federal Employees’
                               Compensation Act costs than was necessary. Ten OIGs
                               identified substantial overpayments and millions of dollars in
                               projected questionable payments. Overall, employing
                               agency officials agreed that improvements were needed in
                               the workers’ compensation program.




                                                   3
                                        Restricted Information
Southwest Area’s Efforts in Obtaining Appropriate                                                     LH-AR-02-003
 Chargeback Credits for Identified Wage Compensation
 Overpayments and Refundable Disbursements

                                            AUDIT RESULTS
    Postal Service                 The audit revealed that the Postal Service had sufficient
    Paying More than               policies to ensure appropriate chargeback credit
    Necessary in Wage              adjustments were received. However, five of the
    Compensation Costs             six Southwest Area performance clusters we reviewed did
                                   not implement follow-up procedures to comply with the
                                   policies. The sixth performance cluster had adequate
                                   procedures but had not followed them since FY 1999. As a
                                   result, the Postal Service was paying more than necessary
                                   in wage compensation costs.

    Policies Were                  The Postal Service’s policy5 regarding the receipt of
    Adequate                       appropriate chargeback credits directed the control office
                                   and designated control point personnel to monitor
                                   compensation payments using chargeback reports and to
                                   immediately notify the applicable Office of Workers’
                                   Compensation Programs district office of any overpayment.
                                   Furthermore, the guidance instructed the control office to
                                   follow-up with actions taken by the Office of Workers’
                                   Compensation Programs on the identified overpayments.

                                   In addition, Postal Service policies6 also required the control
                                   officer or control point supervisor to monitor the action taken
                                   by the Office of Workers’ Compensation Programs on
                                   refundable disbursement cases and to obtain periodic status
                                   reports until cases were closed. The policies further
                                   directed the control officer or control point supervisor to
                                   monitor the progress of refundable disbursement cases still
                                   in the recovery process.

                                   Our review of these policies determined that following them
                                   should enable control office staff to ensure the Postal
                                   Service receives the appropriate credit adjustments for
                                   compensation overpayments and refundable
                                   disbursements.7




5
 Postal Service Handbook, EL-505, Injury Compensation, December 1995, Chapter 13, “Timekeeping and
Accounting,” Section 13.18, “Recovering Compensation Overpayment.”
6
 Employee and Labor Relations Manual – Issue 13, June 1998, and Issue 16.1, February 8, 2001, respectively;
Chapter 5, Employee Benefits, Subchapter 540, Injury Compensation Program, Sections 545.856 and 547.56 Third
Party Liability-Department of Labor Responsibility, and Sections 545.857and 547.57 Postal Service Responsibility.
7
 We are only referring to overpayments and refundable disbursements previously identified to the Office of Workers’
Compensation Programs.



                                                         4
                                              Restricted Information
Southwest Area’s Efforts in Obtaining Appropriate                                                    LH-AR-02-003
 Chargeback Credits for Identified Wage Compensation
 Overpayments and Refundable Disbursements


    Procedures Were               We found that five of the six Southwest Area performance
    Lacking                       clusters we reviewed did not have automated or manual
                                  follow-up procedures to ensure the appropriate chargeback
                                  credit adjustments were received from the Office of Workers’
                                  Compensation Programs. The sixth performance cluster
                                  had adequate procedures but had not followed them since
                                  FY 1999.

                                  According to the control office staffs at the six performance
                                  clusters, they did not monitor the receipt of chargeback
                                  credits because it was considered a low priority within the
                                  scope of their overall workload requirements. We found
                                  Southwest Area performance cluster personnel failed to
                                  adequately monitor 66 out of 73 compensation overpayment
                                  and 6 out of 8 refundable disbursement cases that were
                                  previously identified to the Office of Workers’ Compensation
                                  Programs as errors.

                                  This resulted in approximately $286,0008 in compensation
                                  overpayments and refundable disbursements not credited to
                                  the Postal Service. Specifically, for 260 injury claim cases
                                  administered by the Southwest Area performance clusters
                                  control office personnel, from January 1, 1995, to
                                  December 31, 2000, the Postal Service or Office of Workers’
                                  Compensation Programs had identified:

                                       •	 Compensation overpayments valued at approximately
                                          $212,000 for 73 cases, of which about $153,000 for
                                          49 cases was not credited to the Postal Service.

                                       •	 Refundable disbursements valued at approximately
                                          $230,000 for eight cases, of which about $133,0009
                                          for four cases was not credited to the Postal Service.
                                          (See Appendix C for details pertaining to the
                                          260 cases reviewed.)

                                  Further, based on sample results, we projected that the
                                  Southwest Area has about 223 cases representing
                                  compensation overpayments valued at approximately
                                  $702,000, that have not been monitored to ensure the
                                  appropriate credits are received from the Office of Workers’
8
 After the draft report was issued, management provided us with documentation that identified a refundable
disbursement valued at approximately $74,000 which was previously credited to the Postal Service.
9
 During the course of the audit approximately $62,000 of this amount was credited to the Postal Service.



                                                         5
                                              Restricted Information
Southwest Area’s Efforts in Obtaining Appropriate	                                               LH-AR-02-003
 Chargeback Credits for Identified Wage Compensation
 Overpayments and Refundable Disbursements

                                 Compensation Programs. We believe these are funds that
                                 could be recovered and put to better use. We could not
                                 project the number of cases with refundable disbursements
                                 because there was no system in place that captures this
                                 information.10

 Potential Postal                Previously, we reported in the OIG report, “Workers’
 Service-wide Issue              Compensation Case Management” (Report Number HC-AR-
                                 98-001), dated September 30, 1998, that the Pacific Area
                                 did not ensure that the Office of Workers’ Compensation
                                 Programs had credited the Postal Service for approximately
                                 $107,000 in overpayments. Based on the audit work in the
                                 Pacific Area and the finding contained in this report, we
                                 believe the issues identified may represent a problem Postal
                                 Service wide.

 Conclusion                      We believe the development of monitoring and follow-up
                                 procedures that implement existing policies would benefit
                                 the Postal Service by ensuring appropriate chargeback
                                 credits are received and thus funds are put to better use.
                                 For example, during our audit we followed-up on a
                                 previously identified refundable disbursement which resulted
                                 in the Postal Service receiving a credit adjustment valued at
                                 approximately $62,000. This adjustment reduced the
                                 refundable disbursement balance of about $133,000 to
                                 approximately $71,000.

 Recommendations	                We recommend the vice president, Southwest Area, direct
                                 the area manager, Human Resources to:

                                     1.	 Instruct control office staffs that monitoring and
                                         follow-up on identified wage compensation
                                         overpayments and third party liability refundable
                                         disbursements is a high priority workload
                                         requirement.




10
 The Postal Service is currently developing a new Injury Compensation Performance and Analysis System that may
capture this information.



                                                       6
                                            Restricted Information
Southwest Area’s Efforts in Obtaining Appropriate                                 LH-AR-02-003
 Chargeback Credits for Identified Wage Compensation
 Overpayments and Refundable Disbursements


                                  2.	 Develop and implement area-wide monitoring and
                                      follow-up procedures that adhere to existing Postal
                                      Service policies for identified wage compensation
                                      overpayments and third party liability refundable
                                      disbursements. At a minimum, the procedures
                                      should include steps that identify:

                                              •	 Who is responsible for monitoring.

                                              •	 How the monitoring should be
                                                 accomplished, validated, and documented.

                                              •	 When the area office should be consulted
                                                 and become involved when unsuccessful
                                                 attempts to obtain appropriate chargeback
                                                 credit adjustments occur.

                                  3.	 Develop a system to track previously identified
                                      chargeback credits for wage compensation
                                      overpayments and third party liability refundable
                                      disbursements.

                                  4.	 Using information provided by the OIG, identify and
                                      review the cases not audited in this report, to
                                      determine whether the Postal Service has received
                                      the appropriate chargeback credits for those cases.

 Management’s                     Management agreed with the conclusions and
 Comments                         recommendations to ensure appropriate chargeback
                                  credit adjustments for wage compensation overpayments
                                  and refundable disbursements are received in a timely
                                  manner. Management also agreed that a renewed
                                  emphasis on monitoring identified wage compensation
                                  overpayments and refundable disbursements was
                                  necessary.

                                  Further, management developed new procedures that
                                  emphasize monitoring and tracking results that will be
                                  distributed area wide to implement Postal Service
                                  policies on monitoring wage compensation
                                  overpayments by April 19, 2002. In addition,
                                  management agreed to review case files that were not a
                                  part of this audit in order to determine if chargeback
                                  credits were received.



                                                   7
                                        Restricted Information
Southwest Area’s Efforts in Obtaining Appropriate                                  LH-AR-02-003
 Chargeback Credits for Identified Wage Compensation
 Overpayments and Refundable Disbursements


 Recommendation	              We also recommend the senior vice president, Human
                              Resources:

                                  5.	 Determine whether the conditions identified in
                                      this report exist Postal Service wide and where
                                      appropriate implement recommendations 1 through
                                      4 outlined above.

 Management’s 	               Management agreed with the recommendation and issued a
 Comments	                    Postal Service-wide memorandum dated, March 20, 2002,
                              to implement actions that can be taken immediately.
                              Further, during FY 2003, Postal Service Headquarters plans
                              to sponsor management reviews to determine the level of
                              compliance with the recommendations reported.

 Evaluation of                Management’s comments are responsive to
 Management’s                 recommendations 1 through 5 and the actions taken and
 Comments                     planned should correct the issues identified in this report.




                                                   8
                                        Restricted Information
Southwest Area’s Efforts in Obtaining Appropriate                                               LH-AR-02-003
 Chargeback Credits for Identified Wage Compensation
 Overpayments and Refundable Disbursements



         APPENDIX A. OBJECTIVE, SCOPE, AND METHODOLOGY

The scope of the audit was limited to 6 years of Southwest Area workers’ compensation
claims data administered by control office personnel from January 1, 1995, through
December 31, 2000, and focused on every week where an employee worked (or was
paid) more than 20 hours while also receiving workers’ compensation payments
covering that week. The 6 years of workers’ compensation claims data was comprised
of 5 full chargeback years and 2 half chargeback years.

We negotiated a computer-matching program agreement with the Department of Labor,
Office of Workers’ Compensation Programs and performed a computer match of Postal
Service payroll files against the Federal Employees’ Compensation Act records to
identify all employees who received dual benefit payments for the same timeframe.

In support of the audit objective, we employed a two-stage sample design that allowed
statistical projection of both the number of cases and the net dollar overpayment
amount associated with the cases not credited. The Southwest Area audit universe
consisted of 1,106 injury compensation cases with a wage compensation value of
approximately $5,841,711 for cases with “service from” and “service to” dates separated
by 28 days. Southwest Area office cases, intermittent wage compensation payments,
initial wage compensation payments that were retroactively paid, and rural carriers who
are paid on a daily basis were excluded from the universe. In addition, this audit did not
include a review of continuation of pay compensation payments, medical payments,
schedule awards, and death benefits. See Appendix B for the complete Statistical
Sampling Plan Methodology details.

We relied extensively on computer-processed payroll data contained in the Postal
Service’s payroll pay data hourly history file and computer-processed wage
compensation payment and case data extracted from two of the five subsystems11 of
the Federal Employees’ Compensation Systems. We also relied on prior audit work
performed by the Postal Service OIG on the FY 2000 Postal Service financial statement
audit to assess the payroll function’s general controls, and Department of Labor OIG
prior audit work on the FY 2000 Special Report Relating to the Federal Employees’
Compensation Act Special Benefit Fund policies and procedures. In addition, we traced
statistically selected data to the source case management documentation. Based on
prior audits results and alternative testing procedures performed during the audit, we
assessed the reliability of these data, including relevant general controls, and found
them adequate. As a result of tests and assessments, we consider the computer­
processed data significantly reliable to satisfy the audit objectives.


11
 We performed a computer match of Postal Service payroll data with workers’ compensation payment data
maintained in the Automated Compensation Payment System and specified case data contained in the National Case
Management File.



                                                      9
                                           Restricted Information
Southwest Area’s Efforts in Obtaining Appropriate                            LH-AR-02-003
 Chargeback Credits for Identified Wage Compensation
 Overpayments and Refundable Disbursements



    APPENDIX B. STATISTICAL SAMPLING PLAN METHODOLOGY
Purpose of the Sampling

One of the audit steps in this audit was to determine the number of Southwest Area
compensation overpayments and refundable disbursements that the Postal Service or
Office of Workers’ Compensation Programs had identified out of the sampled cases
and, for those identified cases, to determine whether the Postal service had followed up
to ensure that the chargeback reports had been properly credited. In support of this
audit step, the audit team employed a two-stage sample design that allowed statistical
projection of both the number of cases and the net dollar overpayment amount
associated with the cases not credited.

Definition of the Audit Universe

The audit universe consisted of 1,106 injury compensation cases with a wage
compensation value of approximately $5,841,711 in the Southwest Area, for cases with
“service from” and “service to” dates separated by 28 days. Southwest Area office
cases, intermittent wage compensation payments, and initial wage compensation
payments that were retroactively paid, and rural carriers who are paid on a daily basis
were excluded from the universe. In addition, the audit universe did not include a
review of continuation of pay compensation payments, medical payments, schedule
awards, and death benefits. The universe data was obtained from the computer­
matching program agreement between the Department of Labor, Office of Workers’
Compensation Programs and the Postal Service OIG.

The audit universe was derived from 6 years (5 full chargeback years and 2 half
chargeback years) worth of workers' compensation claims data from January 1, 1995,
through December 31, 2000, matched with Postal Service payroll files for the same
timeframe. The scope of the audit focused on all weeks where an employee worked (or
was paid for) more than 20 hours and also received a workers' compensation payment
covering that week. The only workers' compensation payments used to match against
payroll were payments issued in 28-day payment cycles.

The audit team did not try to evaluate overpayment cases within this universe that had
not been previously identified by either the Postal Service or Office of Workers’
Compensation Programs as a compensation overpayment. There was no universe that
could be predetermined for such cases.




                                                  10
                                        Restricted Information
Southwest Area’s Efforts in Obtaining Appropriate                                    LH-AR-02-003
 Chargeback Credits for Identified Wage Compensation
 Overpayments and Refundable Disbursements


Sample Design

The Southwest Area was randomly selected from the ten Postal Service areas in
existence at the time we started our audit. We used a two-stage sample design that
allocated an overall sample size of 260 cases among six locations (performance
clusters). At the first stage, six out of the seven Southwest Area performance clusters
were randomly selected; the Houston Performance Cluster was not selected for review.
Then at the second stage, 40 cases were randomly selected for review per
three locations, except for Dallas and Fort Worth with 60 and Arkansas with 20 cases.
The Dallas and Fort Worth clusters were further stratified to accommodate a universe
correction that was made before the other clusters were sampled. Our plan was to
provide a two-sided 95 percent confidence interval with a 7 percent precision, based on
auditor expectations of approximately a 50 percent level of compliance on some
attributes. The allocation of the samples is shown in Table 1.

Table 1. Southwest Area Universe and Sample Counts
 Performance                                                     Total Cases Total Cases
Cluster Number Performance Cluster Name                          in Universe in Sample
      720      ARKANSAS PERFORMANCE CLUSTER                                31         20
      752      DALLAS PERFORMANCE CLUSTER                                 269         40
                                                                           62         20
      760        FORT WORTH PERFORMANCE CLUSTER                           155         40
                                                                           48         20
      770        HOUSTON PERFORMANCE CLUSTER                              190          0
      700        LOUISIANA PERFORMANCE CLUSTER                            117         40
      730        OKLAHOMA PERFORMANCE CLUSTER                             115         40
      780        RIO GRANDE PERFORMANCE CLUSTER                           119         40
                 Total                                                  1,106        260

The random selection of performance clusters and cases was made using the Army
Audit Agency’s Statistical Sampling System package, dated 1992, and the Audit
Command Language packages, respectively.

Statistical Projections of the Sample Data

Methodology:

Sample data were projected using the formula for estimation of a population mean and
total for a two-stage sample, as described in Chapter 9, of Elementary Survey
Sampling, Scheaffer, Mendenhall, and Ott, c.1996. The Dallas and Fort Worth stratified
samples were analyzed according to Chapter 5 of Elementary Survey Sampling before
being combined with the two-stage analysis.




                                                  11
                                        Restricted Information
Southwest Area’s Efforts in Obtaining Appropriate                              LH-AR-02-003
 Chargeback Credits for Identified Wage Compensation
 Overpayments and Refundable Disbursements


Projections:

Total amount of wage compensation overpayments not credited

In the sample, we observed wage compensation overpayments amounts ranging from
$0 to $72,244 per performance cluster (or $0 to $25,098 per case). Based on direct
projection of the sample results, we are 95 percent confident the total amount of wage
compensation overpayments not credited is $139,652 to $1,264,832. We can be
somewhat more specific about the lower bound, however, because we know from the
audit actual findings that at least $152,521 was not credited just within the sample items
themselves. The projection of the wage compensation overpayments not credited is
$702,242 (average of about $637 per case).

Number of cases wage compensation overpayments not credited

Based on projection of the sample results, we are 95 percent confident that between
124 and 321 of the 1,106-wage compensation overpayment cases (8 percent to
32 percent) were not credited. The unbiased point estimate is that 223 or 20 percent of
the cases were not credited.




                                                  12
                                        Restricted Information
Southwest Area’s Efforts in Obtaining Appropriate                LH-AR-02-003
 Chargeback Credits for Identified Wage Compensation
 Overpayments and Refundable Disbursements

      APPENDIX C. SOUTHWEST AREA OVERPAYMENTS BY
   PERFORMANCE CLUSTER NOT CREDITED TO POSTAL SERVICE




                                                  13
                                        Restricted Information
Southwest Area’s Efforts in Obtaining Appropriate                LH-AR-02-003
 Chargeback Credits for Identified Wage Compensation
 Overpayments and Refundable Disbursements

                  APPENDIX D. MANAGEMENT’S COMMENTS




                                                  14
                                        Restricted Information
Southwest Area’s Efforts in Obtaining Appropriate                LH-AR-02-003
 Chargeback Credits for Identified Wage Compensation
 Overpayments and Refundable Disbursements




                                                  15
                                        Restricted Information
Southwest Area’s Efforts in Obtaining Appropriate                LH-AR-02-003
 Chargeback Credits for Identified Wage Compensation
 Overpayments and Refundable Disbursements




                                                  16
                                        Restricted Information
Southwest Area’s Efforts in Obtaining Appropriate                LH-AR-02-003
 Chargeback Credits for Identified Wage Compensation
 Overpayments and Refundable Disbursements




                                                  17
                                        Restricted Information
Southwest Area’s Efforts in Obtaining Appropriate                LH-AR-02-003
 Chargeback Credits for Identified Wage Compensation
 Overpayments and Refundable Disbursements




                                                  18
                                        Restricted Information
Southwest Area’s Efforts in Obtaining Appropriate                LH-AR-02-003
 Chargeback Credits for Identified Wage Compensation
 Overpayments and Refundable Disbursements




                                                  19
                                        Restricted Information
Southwest Area’s Efforts in Obtaining Appropriate                LH-AR-02-003
 Chargeback Credits for Identified Wage Compensation
 Overpayments and Refundable Disbursements




                                                  20
                                        Restricted Information
Southwest Area’s Efforts in Obtaining Appropriate                LH-AR-02-003
 Chargeback Credits for Identified Wage Compensation
 Overpayments and Refundable Disbursements




                                                  21
                                        Restricted Information
Southwest Area’s Efforts in Obtaining Appropriate                LH-AR-02-003
 Chargeback Credits for Identified Wage Compensation
 Overpayments and Refundable Disbursements




                                                  22
                                        Restricted Information
Southwest Area’s Efforts in Obtaining Appropriate                LH-AR-02-003
 Chargeback Credits for Identified Wage Compensation
 Overpayments and Refundable Disbursements




                                                  23
                                        Restricted Information
Southwest Area’s Efforts in Obtaining Appropriate                LH-AR-02-003
 Chargeback Credits for Identified Wage Compensation
 Overpayments and Refundable Disbursements




                                                  24
                                        Restricted Information
Southwest Area’s Efforts in Obtaining Appropriate                LH-AR-02-003
 Chargeback Credits for Identified Wage Compensation
 Overpayments and Refundable Disbursements




                                                  25
                                        Restricted Information
Southwest Area’s Efforts in Obtaining Appropriate                LH-AR-02-003
 Chargeback Credits for Identified Wage Compensation
 Overpayments and Refundable Disbursements




                                                  26
                                        Restricted Information
Southwest Area’s Efforts in Obtaining Appropriate                LH-AR-02-003
 Chargeback Credits for Identified Wage Compensation
 Overpayments and Refundable Disbursements




                                                  27
                                        Restricted Information
Southwest Area’s Efforts in Obtaining Appropriate                LH-AR-02-003
 Chargeback Credits for Identified Wage Compensation
 Overpayments and Refundable Disbursements




                                                  28
                                        Restricted Information
Southwest Area’s Efforts in Obtaining Appropriate                LH-AR-02-003
 Chargeback Credits for Identified Wage Compensation
 Overpayments and Refundable Disbursements




                                                  29
                                        Restricted Information
Southwest Area’s Efforts in Obtaining Appropriate                LH-AR-02-003
 Chargeback Credits for Identified Wage Compensation
 Overpayments and Refundable Disbursements




                                                  30
                                        Restricted Information
Southwest Area’s Efforts in Obtaining Appropriate                LH-AR-02-003
 Chargeback Credits for Identified Wage Compensation
 Overpayments and Refundable Disbursements




                                                  31
                                        Restricted Information
Southwest Area’s Efforts in Obtaining Appropriate                LH-AR-02-003
 Chargeback Credits for Identified Wage Compensation
 Overpayments and Refundable Disbursements




                                                  32
                                        Restricted Information
